2

O)

a

y

No.

FILED
AUG 1 7 2021

IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL DESHON MATTHEWS #281752
Vs.
MICHIGAN

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

MICHAEL DESHON MATTHEWS #281752
IONIA MAXIMUM CORRECTIONAL FACILITY
1576 W. BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

QUESTION PRESENTED FOR REVIEW

1. DID TRIAL COURT ERR IN DENYING DEFENDANTS MOTION FOR
SUBSTITUTE COUNSEL IN VIOLATION OF THE UNITED STATES AND
MICHIGAN CONSTITUTIONS?

2. WAS MR. MATTHEWS DEPRIVED OF HIS SIXTH AMENDMENT RIGHT
TO A SPEEDY TRIAL WHERE HE WAS ARRESTED ON OR ABOUT
NOVEMBER 22,2015 AND TRAIL BEGAN ON SEPTEMBER 28, 2016?

3. DID THE TRIAL COURT ERR IN ASSESSING MR. MATTHEWS $1,200 IN COURT
COSTS?

4.

DID THE TRIAL COURT ABUSE ITS DISCRETION BY ORDERING $7,005. IN
RESTITUTION?

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

TABLE OF AUTHORITIES

2

CITATION OF OPINIONS

,4

JURISDICTION

.4

MICHIGAN STATUTE INVOLVED

5

STATEMENT OF CASE

8

REASONS FOR GRANTING THE WRIT OF CERTIORARI,

16

CONCLUSION,

26

CERTIFICATE OF SERVICE

,27

List of Appendix
A. People v. Matthews, 2018 Mich. App. LEXIS 408 (unpublished)
B. People v. Davids, 2020 U.S. Dist. Lexis 207865 (unpublished)
C. Matthews v. Davids, 2020 U.S. Dist. LEXIS 206978 (unpublished)
D. Matthews v. Davids, 2021 U.S. App. LEXIS 20373 (unpublished)

List of Parties Involved Pursuant to USSC Rule 12.6
1. MICHAEL DESHON MATTHEWS #281752 The Petitioner.
2. Michigan Attorney General Dana Nessel the Respondent for the State.

1

TABLE OF AUTHORITIES
SUPREME COURT CASES
Barker v Wingo, 407 US 514, 530; 92 S Ct 2182, 2192; 33 L Ed 2d 101 (1972)

21

Gideon u Wainwright, 372 US 335; 83 S Ct 792; 9 L Ed 2d 799 (1963)...........

17

Marion at 320; 92 S Ct at 463; 30 L Ed 2d 468 ..................................................

22

Moore v Arizona, 414 US 25, 26; 94 S Ct 188,189-90; 38 L Ed 2d 183 (1973)

23

Strunk v US, 412 US 434, 436-37; 93 S Ct 2260, 2262; 37 L Ed 2d 56 (1973).

22

US v MacDonald, 456 US 1, 8; 102 S Ct 1497, 1502; 71 L Ed 2d 696 (1982)

23

US v Marion, 404 US 307, 320; 92 S Ct 455, 463; 30 L Ed 2d 468 (1971)

20

FEDERAL CASES
17

Wilson v Mintzes, 761 F2d 275 (CA 6, 1985)
STATE CASES
In re McEvoy, 267 Mich App 55, 59, 704 NW2d 78 (2005).......................................

25

Klopfer v North Carolina, 386 US 213, 226; 87 S Ct 988, 995; 18 L Ed 2d 1 (1967).

20

People v Bell, 276 Mich App 342, 347, 741 NW2d 57 (2007),...................................

16

People v Charles O. Williams, 386 Mich 565, 574-576; 194 NW2d 337 (1972)........

16

People v Gahan, 456 Mich 264, 276, 571 NW2d 503 (1997).....................................

25

People v Grimmett, 388 Mich 590, 606; 202 NW2d 278, (1972) (overruled on other
grounds, 390 Mich 245; 212 NW2d 222 (1972))....................................................

22

People v Gubachy, 272 Mich App 706, 708, 728 NW2d 891 (2006).........................

25

People v Johnson, 315 Mich App 163, 197; NW2d (2016)........................................

24

-People'vKonopka-(OrrRernand)7309*Mich App 3457338^69 NW2d 651 (2015)...

25

2

People v Mack, 190 Mich App 7, 14; 475 NW2d 830 (1991).......................

16

People v McLaughlin, 258 Mich App 635, 643; 672 NW2d 860, 867 (2003)

20

People v Moss, 253 Cal App 2d 248, 251; 61 Cal Rptr 107 (1967)...............

17

People v Wilson, 43 Mich App 459', 204 NW2d 269(1972),........................

17

People v Zahn, 234 Mich App 438, 445, 594 NW2d 120 (1999)..................

25

STATUTES
MCL §780.767 (4)

24

MCL §780.767 (4)

25

CONSTITUTIONAL PROVISIONS
Const. 1963, art 1, § 17, 20; US const, Ams VI, XIV

19
20

US Const, Am VI

20,22

Mich. Const 1963, Art 1, §17 & 20

3

CITATION OF OPINION BELOW
The Michigan Court of Appeals issued an order and opinion in People v. Matthews, 2020
Mich. App. LEXIS 207865 (unpublished). The Michigan Supreme Court issued order
denying the Petitioner Leave to Appeal in People v. Matthews, 917 N.W. 2d 66 (September
18th, 2018) (unpublished) The United States District Court for the Southern District of
Michigan Denied Petitioner’s Writ of Habeas Corpus in Matthews v. Davids, 2020 U.S. Dist.
LEXIS 207865, on May 1st, 2020. Subsequently the District Court denied petitioners
objection on November 5th, 2020. Subsequently, the United States Court of Appeals for the
Sixth Circuit denied the Petitioner’s appeal in Matthews v. Davids, 2021 U.S. App LEXIS
20373, (# 20-2216) on July 8, 2021. See Appendix A-D.

JURISDICTION
A petition for a Writ of Certiorari to review a judgment in any civil or criminal case
entered by a State Court of last resort or Federal Court of Appeals is timely when filed with
the Clerk of the USSC within 90-days after entry of the judgment. See USSC R. 13.1. The
United States Court of Appeals for the Sixth Circuit denied the Petitioner’s Writ of Certiorari
inMatthews v. Davids, 2021 U.S. App LEXIS 20373, on July 8,2021. Petitioner is within the
90 days allowed. On October 6,2016, Defendant-Appellant, Michael Deshon Matthews, was
convicted of first degree murder (MCL 750.316) and felony firearm (MCL 750.227b(a). On
October 21, 2016, Mr. Matthews was sentenced to life without possibility of parole to be
served consecutive to the 2 year felony firearm sentence.

4

MICHIGAN STATUTES INVOLVED

§ 769.1
Short title.
Sec. 1.
This act shall be known and may be cited as the “authority to impose court costs”.

g 780.767
Short title.
Sec. 1.
This act shall be known and may be cited as the “general restitution statute”.

STATEMENT OF CASE
The.People allege that on November 22, 2015, Defendant-Appellant Michael Deshon
Matthews, went to a social club located at 10435 Joy Rd. in Detroit with some friends. After
Mr. Matthews and co-defendant Joshua Simpson were kicked out of the club, they tried to
re-enter, but were not allowed back in. Darrell Jeter was attending the door. The People
allege that Mr. Matthews entered the vestibule and killed Mr. Jeter with a gunshot to the
head.
June 10, 2016 Final Conference
During the June 10,2016, Final Conference, Mr. Matthews requested that his case be
dismissed on the grounds that his right to a speedy trial had been violated. He noted that he
already had been incarcerated for 202 days. He also requested that new counsel be appointed.
The motion for dismissal was denied.(6/10/16 TR at 4). With regard to the request for new
counsel, the trial judge acknowledge that he had received letters from Mr. Matthews
5

requesting that he be provided with a new attorney and that his right to a speedy trial had
been violated. The judge stated that his attorney, Clifford Woodards, had previously
appeared in his court and has been very effective.
Attorney Woodards stated that he had shown Mr. Matthews a video of the incident
on a couple of occasions. While the video showed that co-defendant Simpson was present,
the identify of the shooter was not apparent. Attorney Woodards told the court that if
Matthews contended that the other person was not him, he should tell him who it was and he
would go to the prosecutor. Matthews stated that he could not identify a person he didn't
know. The trial judge denied Matthews's motion to have new counsel appointed. (6/10/16
TR at 7)
Testimony of Pamela Hammonds
Pamela Hammonds testified that the Supersonic Palace, located at 10435 Joy Rd., was owned
by her fiance, Hubert Marshall. (TR 2 at 62 — 63). She testified that around 3.00 AM on
November 22 that "I seen a tall guy with a red jogging suit on. He had just came in
approximately about 20 feet from the door entrance. I spotted him. He was walking as if he
was intoxicated." (TR 2 at 63). She was concerned because she saw what appeared to be a
gun bulging from the back of the man's red jogging suit. She stated that Mr. Matthews was
assisting the man in the red jogging suit, who appear to be very inebriated. As Matthews was
holding the man's arm, she stated that "they was like walking like zigzag walking or
whatever. That's when I seen gun bulging out." (TR 2 at 65-67). She alerted the Brandon, the
security guard. She testified that "Brandon had him up, the tall guy in the jogging suit, up
and escorted him out. Drew had Mr. Matthews in a full nelson, and a gun was in his waist
like thiTirftheTfbhfoflTim."'(TR'2'ar68). At some point, ner stepson, Darrell Jeter, had been
6

shot. She did observe the shooting. She agreed that she did not know how long Matthews
and the other man had been in the club. She gave a statement to the police around 7:00 AM.
She initially told the police that she did not see anybody with a gun. (TR 2 at 81). She agreed
that at the preliminary examination she testified that she never saw Mr. Matthews with a gun.
On redirect she stated that she did see a gun on Mr. Matthews. When she was asked why she,
didn't inform the police about it earlier, she testified "I don't know. I really can't answer that.
I don't know." (TR 2 at 83).

Testimony of Shawndrea Williams
Shawndrea Williams was at the Supersonic Palace at the time of the incident
performing security. She stated that there was chaos in the club and "then my brothers came
out with a guy and had him in a full nelson." (TR 2 at 88). The person was wearing dark
jeans and a hoodie. She identified that person as Mr. Matthews. She stated that Matthews
had come into the club with 3 girls and about 4 guys. After he was escorted out of the club,
he kept trying to get in, but security would not let him enter.
She testified that there was a "light-skinned boy with him" that was wearing an all
red True Religion jogging suit. (TR 2 at 91). She stated that Matthews came back to the door
at least three times. When Matthews initially entered the club he greeted her and Darrell. He
shook Darrell's hand and gave her a hug. She testified that "the second time he came back to
the door, it was some girls came in first, and he tried to like pull the door, and Little Stony
[Darrell] yanked it, and he slammed it. Then I seen him run off." (TR 2 at 93). She told
Darrell not to open the door anymore and that she was going to get "one of the older club

7

brothers to come back to the court doors." (TR 2 at 87). She stated that by the time she
returned Mr. Jeter had been shot in the head.
On November 23 she was brought to the Detroit Detention Facility to view 2 live
lineups. She identified Mr. Matthews and co-defendant Joshua Simpson as the men that came
into the club together. She did not know who actually shot Mr. Jeter. She testified that she
saw a weapon tucked in the front ofMr. Matthews's pants. She testified that "when they
brought him out in the full nelson, the butt of the gun was hanging out the front of his pants."
She had seen Mr. Matthews at another social club in the past. She testified that she
gave the police a description of the shooter even though she did not witness the shooting.
She testified that she wasn't actually describing the shooter but rather the person she saw
with a gun. She testified that she did not know Matthews when he first came in the club but
after he kept telling her that he used to belong to another social club, she recalled who he
was. (TR 2 at 109).
Testimony of Rolando Brunson
Rolando Brunson was at the club at the time of the incident. He witnessed a person
being escorted out of the club who was wearing a blue jacket and blue jeans. He identified
that person as Mr. Matthews. (TR 2 at 122). He stated that Matthews was with a tall
lightskinned man who was dressed in red. After the men were escorted out ofthe club they
came back three times and tried to reenter. He was asked to view a live lineup at the Detroit
Detention Facility on November 23, 2015. He identified Mr. Matthews and the person in the
red jumpsuit. He stated that Matthews was wearing a windbreaker jacket that did not have a

8

hoodie. (TR 2 at 126). He testified that he was crossing Joy Road at the time of the shooting.
He was not able to see the actual shooting.
When he was questioned by the police he described the person who supposedly had
a gun as a black male, dark skinned with a nappy Afro, 5 foot 6 and wearing a blue Nike
jacket and blue jeans.
Testimony of Terrence Gardner
Terrence Gardner went to the club with Michael Matthews, JoJo, Keith Mathis and
3 women. (TR 3 at 5). They drove there in Keith's black Ford Escape. Gardner was shown
surveillance video from the club and described what he saw. He identified Matthews in a
still from a video. He was wearing a black jacket. He also identified JOJO, who was dressed
in red. He identified himself and JOJO in the video going to his car and returning to the
club. He stated that Matthews was wearing blue jeans with a blue jacket and white and blue
shoes. He stated that Matthews took off his black jacket when they were in the club.
He described Matthews going to the car and then returning to the club.
Terrence stated that he was holding up JOJO who was very inebriated. He testified that
at 40:55 of the video "Michael just made contact to the car asking JOJO for the gun."
He stated that JOJO previously had the gun that he kept in the crotch of his red suit. At
4120 he described Mr. Matthews with a gun in his right hand. At 41:48 he described
Matthews returning to the car and stated that Matthews "said he just j>lew a nigger." (TR 3
at 17). Terrence Gardner testified that after Matthews got the gun from JOJO he said "I am
about to shut this Bitch down." (TR 3 at 17). He testified that Matthews was driving a white
Ford Escape.
9

Gardner stated that the first time they tried to enter the club was at 315 on the video.
He believed that Matthews was already in the club at that time. At 4:44 he stated that they
were getting put out of the club. He testified that they were in the club for no longer than a
minute before they were asked to leave. He also described Matthews going into the club after
he got the gun. JO JO came back and told him that Matthews had shot somebody. He stayed
in the car until Matthews and JOJO pulled up in the white Ford Escape. (TR 3 at 32).
After the white Ford Escape drove away, he walked to the front of the building and
he saw that somebody had been shot. He went to the gas station about a block away because
he did not want anything to do with the shooting. After he was at the gas station he saw
Matthews drive by. He testified that "I dropped my jacket and just went to the store while he
picked up the girls we came with. " (TR 3 of 34). While he was waiting at the gas station he
heard a couple of shots because somebody else was shooting outside. The store clerk called
the police. He also spoke with his mother and she told him that if he didn't have anything to
do with the shooting, he should call the police. He spoke with the police shortly thereafter.
Testimony of Demireo Dixon
Demireo Dixon was working at Stoney's (Supersonic Palace) on the night of the
incident. Darryl Jeter was working at the door and Mr. Dixon was assigned to search the
men who entered the club. His girlfriend, Shawnrea, searched the women. Jeter's father
owned the club and was known, as "Stoney." (TR 3 at 55 — 56).
He stated that a lot of people were coming in and out of the club that night, but he
noticed two men that kept on running in and out. One of the men was wearing all red. At
some point Shawnrea came and got him while JOJO and Matthews were getting bounced
out of the club. After they were put out, he saw them try to gefback in'whitelMrrJeter was
10

at the door. He observed Matthews shoot Jeter with a handgun. (TR 3 at 60). He was 8 to 10
feet away when the shooting occurred. When Matthews was trying to get back in the club he
said that he knew Stoney. He stated that Jeter told him that he would have to talk to his father
if he wanted to get into the club.
Testimony of Dr. Kilak Kesha
Dr. Kilak Kesha was qualified as an expert in forensic pathology. Dr. Kesha
performed the autopsy on Darrell Jeter. He estimated that the shot was fired from within
1—2 feet. There was a single gunshot wound to the left side of Jeter's head. (TR 2 at 117).
He concluded that the death was a homicide by a gunshot wound.
Testimony of Officer Christian Kerr
In the early morning of November 22, 2015, Officer Kerr was dispatched to a social
club located at 10435 Joy Rd. with regard to a fatal shooting. (TR 2 at 33 — 34). Officer
Kerr testified that a bullet casing was found between the sidewalk and the door of the club.
(TR
2 at 59). The victim was found inside the vestibule.
Testimony of Corporal George Moore
Corporal George Moore responded to the incident around 330 AM. When he entered
the building he discovered a black male lying on the ground with a carpet covering him. He
removed the carpet and observed a gunshot to the man's head and notified emergency
medical services. (TR 2 at 139) He was able to speak with one of the patrons who gave him
an idea of what occurred. He received a description of an unknown black male 5 10 , 180
'pounds-dark-skinned-wear4ng-a-gray-sweater-with-an-Afro--------------------------- ----------11

Testimony of Officer Trey Lyons
November 22, 2015 around 7:45 PM Officer Trey Lyons was dispatched to pick up Joshua
Simpson who was wanted for murder. She conducted a traffic stop of a 2004 gray Cadillac
Escalade. When she went to the rear driver side and illuminated the interior, she saw Mr. Simpson
leanding way from her as if he was trying to hide. (TR 3 at 49). Simpson was wearing a red True
Religion sweatshirt and jogging pants. (TR 3 at 50).
Testimony of Officer Ryan May
On November 23, 2015 around 1:20 PM Officer Ryan May was dispatched to arrest
Michael Matthews who was wanted for homicide and a carjacking. (TR 3 at 53).
Testimony of Officer Johnell White
Detroit Police Officer Johnell White was the officer in charge of the case. Officer
White conducted live lineups with Demireo Dixon and Rolando Bronson on November 23, 2015,
at the Detroit Detention Center. Dixon identified Michael Matthews and Joshua Simpson. Rolando
Brunson also observed a live lineup and identified Mr. Matthews and Joshua Simpson. (TR 3 at
87 — 88).
Officer White interviewed Michael Matthews on November 23. He testified that Mr.
Matthews did not want anything reduced to a written statement. Matthews told Officer
White that he did not recall being at the club on November 22. After White told him about
the video from the club, Matthew still did recall being there.
Verdict
On October 6, 2016, Mr. Matthews, was convicted of first degree murder and felony
firearm.

15

Sentence
On October 21, 2016, Mr. Matthews was sentenced to life without possibility of parole to
be served consecutive to the 2 year felony firearm sentence. Restitution was ordered in the amount
of $7005, joint and several with co-defendant, Joshua Simpson. He was also ordered to pay $136
in state costs, a $130 crime victim assessment fee, court costs of $1300 and attorney fees of $400.
During the sentencing hearing, Matthews reiterated that he requested a new lawyer at the
beginning of the case.
REASONS FOR GRANTING THE PETITION
The Petitioner respectfully requests based upon the grounds hereafter, this Honorable Court
GRANT the within writ and reverse the judgment of the court below. The petition for a Writ of
Certiorari should be granted as Petitioner was denied his Federal Constitutional Rights.
GROUND ONE
DID TRIAL COURT ERR IN DENYING DEFENDANTS MOTION FOR
SUBSTITUTE COUNSEL IN VIOLATION OF THE UNITED STATES AND
MICHIGAN CONSTITUTIONS?
Upon a showing of adequate cause for a change, an indigent defendant is entitled to have
his appointed lawyer replaced. Appointment of a new lawyer is required when there
are irreconcilable differences between counsel and the defendant over fundamental trial tactics or
using a substantial defense. The need to protect the accused's right to counsel is paramount. People
v Charles O. Williams, 386 Mich 565, 574-576; 194 NW2d 337 (1972). "Good cause exists where
a legitimate difference of opinion develops ..." People v Mack, 190 Mich App 7, 14; 475 NW2d
830(1991).
For example, in People v Charles O. Williams, supra, the Supreme Court found that the trial
judge abused his discretion by denying the defendant's good-faith request to substitute counsel
when the defendant and his appointed lawyer reached " an irreconcilable difference of opinion?’'
16

The Supreme Court stated that "there is no evidence in the record before us that this was a delaying
tactic, and a great deal of evidence that it was not for purposes of delay," at 577. "[T]he attorney
and defendant reached an impasse ... They deemed the difference so fundamental that both advised
the judge the attorney should be relieved of the duty to represent defendant." Id., at 573', citations
omitted. The Supreme Court quoted with approval from People v Moss, 253 Cal App 2d 248, 251;
61 Cal Rptr 107(1967):
We believe the basic right to representation by counsel, made so clear by Gideon v
Wainwright [372 US 335; 83 S Ct 792; 9 L Ed 2d 799 (1963)] encompasses the right
to appointment of different counsel when a legitimate difference of opinion develops
between a defendant and his appointed counsel... When this occurs, the defendant is
entitled to a reasonable continuance in order to effectuate a change of attorneys and
obtain the representation by counsel he is entitled to have under the Constitution [386
Mich at 574].
In People v Wilson, 43 Mich App 459', 204 NW2d 269(1972), the defendant
complained that his communication with counsel had ceased and that he was afraid to disclose
names of potential alibi witnesses because he believed his attorney was working with the
prosecution against him. This Court disagreed with the trial judge, who had responded to the
defendant's complaints by concluding that defense counsel was competent and that the defendant
had no right to appointed counsel of his choice. The Court of
Appeals reversed the conviction and remanded for a new trial, finding that the trial judge
failed to investigate the defendant's claims or to exercise his discretion:
His conclusion that appointed counsel was competent was unresponsive to
defendant's allegation regarding the inadequacy of counsel's performance and
the destruction of communication and confidence between the parties ... The trial
judge received timely notice of defendant's dissatisfaction with counsel and the
judicial process would not have been subverted by the appointment of new
counsel. Id at 462-463.
Similarly, in Wilson v Mintzes, 761 F2d 275 (CA 6, 1985), the Sixth Circuit found that the
trial judge, after questioning defense counsel ’s competence and provoking counsel into acts
inconsistent with his duty of loyalty to his client, acted unreasonably in failing to heed the
defendant's expressions of dissatisfaction. The trial court asked the defendant twice if he was
satisfied with his defense counsel, and he stated that he was not. Defense counsel also twice
17

attempted to withdraw from the case, including once in the middle ofthe trial in front of the jury,
and the trial judge denied his request both times. The Sixth Circuit reversed the judgment of the
lower court and remanded the case back to the District Court with instructions to grant a writ of
habeas corpus.
In the present case, during the June 10, 2016, final conference, the trial judge acknowledge
that he had received letters from Mr. Matthews requesting that he be
provided with a new attorney. Mr. Matthews's letters are in the court file. In a letter sent
to the Honorable Timothy Kenny, dated February 18, 2016, and post-marked February 19, 2016,
Mr. Matthews wrote to the judge asking that trial counsel be replaced. (Exhibit 1).
In other letters, Mr. Matthews alleges that:
1.
2.
3.
4.

his counsel has a personal relationship with the victim and was hired
victim's family;
by the
he had written to the Attorney Grievance Commission regarding his
attorney;
his attorney does not have his best interests at heart;
he has been attempting to fire his attorney since late 2015.

In denying Mr. Matthews's request for new counsel, the following transpired:
THE COURT: I know that you have sent some letters, a couple of letters to me with regards
to Mr. Woodards. Mr. Woodards has appeared in front of me any number of times. Has been
highly effective in cases that he has been appearing in front of me.
But let me hear from Mr. Woodwards.
MR. WOODARDS: Judge, I really don't have a problem with Michael. I showed him the
video with respect to this case, and he. And, in fact, can we do one thing before I continue?
***
.. .1 went over, showed him the video that the People would probably introduce that shows
two men coming from the club and then going back. One of them goes back into the club.
One of those individuals I believe I told him that clearly is Mr. Simpson because he's
identified by the People, by the People's witnesses as wearing a bright True Religion track
suit in the video. So I told him that's pretty much where we were. He says that the other
individual who the People believe is the shooter and is him is not him.
I've got a problem. I got a problem with that, but I think he got upset with me. I said, Okay,
if it's not you, tell me who it is, and if I can go and talk to Mr. Beadle about this, we can do
some investigating.
Well, I'm not going down for something I didn't do. I don't want him to do that either, but I
TalkedlcTlYim again:
18

But if it should be in his interest that with the evidence that the People may show at trial, I
would like for him to help himself. And if the person, if it's not him, because you can see
this guy's, I thought it was a hoodie, and the video is not sharp enough to recognize who the
individual is. So it could come down to he say, she say.
I really want him to tell me who he believes that it is so I can have my Investigator look into
that.
DEFENDANT MATTHEWS: How can 1 tell you what 1 don't know?
MR. WOODARDS: I think we can work it out, Judge.
•

THE COURT: Mr. Matthews, there have been instances where I have had cases before me
where if 1 believe that the attorney is not representing someone competently, that I will
remove them. And I have gotten to know attorneys who appear and practice here in this
building.
I do know that Mr. Woodards is going to be, as he has been in the past, thorough in the way
he conducts his investigations. And I think you need to know that sometimes when attorneys
are not over there every day visiting with you in the jail, it is because they are working on
the case. That's their job.
And that Mr. Woodards at this point I think has not given me any reason to remove him, and
I expect that you would continue to have discussions with him.
If there are problems, you can certainly let me know, and we can bring you and Mr.
Woodards here together to work it out if there are further problems.
But I think you need to let Mr. Woodards do his job, work with his investigator to find out
what is the best defense strategy for you in this case.
So, I am not going to discharge Mr. Woodards at this point. (6/10/16 at 7)
While the trial judge acknowledged that he had received Mr. Matthews's letters, he did

nothing to determine whether or not there were irreconcilable differences between Mr. Matthews
and his counsel. The need to protect the accused's right to counsel is paramount. Charles O.
Williams, supra. Instead of exploring Mr. Matthews's grievances, the trial judge relied solely upon
counsel's representations and his impression of counsel's performance in his courtroom. The record
shows that Mr. Matthews began requesting substitute counsel early on in the case. It is clear that
he was not engaging in any delay tactics. In denying his request, the trial judge did not ask any
questions to establish whether Mr. Matthews had a valid basis for requesting new counsel. Instead,
the inquiry was limited to Attorney Woodwards' views. Forcing Mr. Matthews to continue with
----- -Woodward,-an-a-ttQmey-that-he-did-no.t-tmst,-depriy-ed-him.of.the-right_to_counseL-------------------19

An indigent defendant is entitled to have his appointed lawyer replaced upon a showing of
adequate cause for a change. Mr. Matthews was not even provided with that opportunity. The
judge's decision was made without any reference to the basis for Matthews's request and constitutes
an abuse of discretion. For these reasons, due process requires a new trial. Const 1963, art 1, § 17,
20; US const, Ams VI, XIV.
GROUND TWO
MR. MATTHEWS WAS DEPRIVED OF HIS SIXTH AMENDMENT TO A SPEEDY
TRIAL YM-IERE HE WAS ARRESTED ON OR ABOUT NOVEMBER 22,
2015 AND TRIAL BEGAN ON SEPTEMBER 28, 2016.
A. Standard of Review and Preservation of Error.
Whether a defendant has been denied his right to a speedy trial presents a constitutional
question this court reviews de novo. People v McLaughlin, 258 Mich App 635, 643; 672 NW2d
860, 867 (2003).
Mr. Matthews was arrested on November 22, 2015 and trial commenced on September 28,
2016. During the June 10 2016 Final Conference, Mr. Matthews stated that he was asking for a
speedy trial dismissal because he had been incarcerated and not brought to trial. In a letter to the
trial judge dated April 20, 2016, Mr. Matthews wrote that he had been incarcerated 202 days and
that he "wrote for a speedy trial release motion" but that the court "has not responded. 1"
B. Argument
The Sixth Amendment provides that " [i]n all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial..." US Const Am VI. Michigan offers a virtually identical
protection in its constitution. See Mich Const 1963 art I § 20. This right is fundamental to our
system of justice and "one of the most basic rights preserved by our Constitution." Klopfer v North
Carolina, 386 US 213,226; 87 S Ct 988, 995; 18 L Ed 2d 1 (1967). The provision prevents persons
accused of crimes from "undue and oppressive incarceration prior to trial... anxiety and concern
accompanying public accusation and ... impair[ed] ... ability ... to defend himself." US v Marion,
404 US 307, 320; 92 S Ct 455, 463; 30 L Ed 2d 468 (1971). As the Marion court observed, serious
policy considerations drive the rule:
4-Tfe4etter"dated-April-3Q7?-Qt^-w^^tom.paa-^ftcpJ.vp^-QnJ.ime-9,-2fll6-Jn-another-letter in the court file dated May
25, 2016, Mr. Matthews writes that "I wrote to [Judge Kenny] on my speedy trial dismissal."
20

Inordinate delay between arrest, indictment and trial may impair a defendant's
ability to present an effective defense. But the major evils protected against by the
speedy trial guarantee exist quite apart from actual or possible prejudice to an
accused's defense. To legally arrest and detain, the Government must assert
probable cause to believe the arrestee has committed a crime. Arrest is a public act
that may seriously interfere with the defendant's liberty, whether he is free on bail
or not, and that may disrupt his employment, drain his financial resources, curtail
his associations, subject him to public obloquy and create anxiety in him, his family
and his friends. Id at 320; 92 S Ct at 463; 30 L Ed 2d 468.
In Barker v Wingo, 407 US 514, 530; 92 S Ct 2182, 2192; 33 L Ed 2d 101 (1972) the
Supreme Court identified four factors for lower courts to consider in evaluating whether an
accused has been denied a speedy trial. They include "[ljength of delay, the reasons for the delay,
the defendant's assertion of his right, and prejudice to the defendant." Id. While a court must
consider each Barker factor individually, no factor alone is dispositive:
We regard none of the four factors identified ... as either a necessary or sufficient
condition to the finding of a deprivation of the right of speedy trial. Rather, they are
related factors and must be considered together with such other circumstances as
may be relevant. In sum, these factors have no talismanic qualities; courts must
engage in a difficult and sensitive balancing process. But because we are dealing
with a fundamental right of the accused, this process must be carried out with full
reco gnition that the accused's interest in a speedy trial is specifically affirmed in the
Constitution. Id at 533; 92 S Ct at 2193; 33 L Ed 2d 101.
As set forth in the letters written to the trial court, Mr. Matthews repeatedly asserted his
right to a speedy trial (Exhibit 1). As noted, he also repeatedly requested new counsel.
The US Supreme Court identified three kinds of delay in Barker: (1) deliberate delays, for
example, where a prosecutor attempts to hamper a defense; (2) neutral delays, caused by things
like prosecutorial negligence or overcrowded dockets; and (3) valid delays, as might occur when
something like a necessary witness is missing. Barker, supra at 527.
The ultimate responsibility for "neutral" delays still rests with the government. Id at 529 (noting
that the primary burden to assure cases are brought to trial rests with prosecutors, not defendants).

21

Under Barker, standard pre-trial delays are the responsibility of the prosecutor. It is well
settled that delays caused by docket congestion cannot be weighed against the defendant.
Unintentional or otherwise, they are more properly charged to the prosecution, since the State —
not the accused — bears the duty of bringing a defendant to trial. Strunk v US, 412 US 434, 43637; 93 S Ct 2260, 2262; 37 L Ed 2d 56 (1973). Moreover, focusing on whether the prosecutor
caused a delay for a "legitimate" reason or because of bad faith is somewhat misplaced. Other than
two short delays attributed to the defense, the delay in bring Mr. Matthews to trial must be
attributed to the prosecution. The register of actions indicates that two adjournments of pre-trials
were requested by Defendant's counsel. A February 18, 2016 conference was adjourned until
March 11, 2016 and a May 16, 2016 conference was adjourned until May 25,2016.
Since Mr. Matthews took every reasonable step in preserving his right to a speedy trial
(without his attorney's assistance), Barker dictates that this factor weighs heavily in his favor.
Under Michigan law, if eighteen months pass between arrest and the start of trial, courts
will presume prejudice to the defendant. People v Grimmett, 388 Mich 590, 606; 202 NW2d 278,
(1972) (overruled on other grounds, 390 Mich 245; 212 NW2d 222 (1972)).
Because the delay here did not exceed eighteen months, prejudice to is not presumed.
Mr. Matthews was incarcerated for approximately 10 months prior to the commencement
of trial. As noted in Marion, "the major evils protected against by the speedy trial guarantee exist
quite apart from actual or possible prejudice to an accused's defense.... Arrest is a public act that
may seriously interfere with the defendant's liberty, whether he is free on bail or not, and that may
disrupt his employment, drain his financial resources, curtail his associations, subject him to public
obloquy and create anxiety in him,
his family and his friends." Marion at 320; 92 S Ct at 463; 30 L Ed 2d 468. Mr. Matthews's
repeated attempts to inform the trial court that he wanted to be brought to trial implicates the

22

GROUND THREE

THE COURT ERRED IN ASSESSING MR. MATTHEWS $1,300 IN COURT
COSTS.
A. Standard of Review and Preservation of Issue
Mr. Matthews was assessed $1,300 in cost costs. Because Mr. Matthews's counsel did not
object to the imposition of court costs at the trial court level this issue is unpreserved for appeal.
This Court reviews an unpreserved challenge to a trial court's imposition of court costs for plain
error affecting a defendant's substantial rights. People v Johnson, 315 Mich App 163,197; NW2d
(2016). "In order for a defendant to establish plain error, he must show that (1) an error occurred,
(2) the error was plain, i.e.
clear or obvious, and (3) the plain error affected substantial rights." Id.
B.

Discussion

A trial court possesses the authority to order a defendant to pay reasonable court costs.
People v Konopka (On Remand), 309 Mich App 345, 358; 869 NW2d 651 (2015). While those
costs do not need to be separately calculated, a trial court must "establish a factual basis" for the
costs imposed. MCL 769.lk(l)(b)(iii); Konopka, 309 MichApp at 359." [Wjithout a factual basis
for the costs imposed, [this Court] cannot determine whether the costs imposed were reasonably
related to the actual costs incurred by the trial court, as required by MCL 769.1k(l)(b)(iii)." Id. at
359-360. The trial court did not articulate its basis for the $1,300 in court costs assessed to
defendant at sentencing. In assessing Mr.
Matthews with $ 1,300 in court costs, the trial court stated:
There is restitution in the amount of $7,005.00 to Hurticene Harris. That is
joint and several liability with co-defendant, Joshua Simpson. There is
$136.00 state cost, $130.00 crime victim assessment fee, court costs of
$1,300.00 and attorney fees of $400.00. (ST at 10-11).
There is also nothing in the lower court record providing a factual basis for the
imposition of $1,300 in court costs. Thus, the lower court record is unclear as to whether the
court costs "were reasonably related to the actual costs incurred"T5yTHelfial court?'~KonopkaT
24

309 Mich App at 359. Where "defendant specifically challenges the lack of reasoning for the
costs imposed . . . [he] should be given the opportunity to challenge the reasonableness of the
costs imposed." Id. at 360. The trial court erred in ordering defendant to pay court costs without
establishing a factual basis for the costs imposed. The assessment of costs must be vacated.
GROUND FOUR

THE TRIAL COURT ABUSED ITS DISCRETION BY ORDERING $7005 IN
RESTITUTION.
A. Standard of Review and Preservation of Issue
This Court reviews a trial court's restitution order for an abuse of discretion. In re McEvoy,
267 Mich App 55, 59, 704 NW2d 78 (2005). The trial court's findings of fact are reviewed for
clear error. People v Zahn, 234 Mich App 438, 445, 594 NW2d 120 (1999). Restitution was
ordered in the amount of $7005, joint and several with co-defendant,
Joshua Simpson
B. Argument
"Crime victims have a constitutional right to restitution." People v Gubachy, 272 Mich App
706, 708, 728 NW2d 891 (2006), The prosecution bears the burden of establishing the proper
amount" of restitution by a preponderance of the evidence. People v Gahan, 456 Mich 264, 276,
571 NW2d 503 (1997); MCL 780.767(4). "The amount of restitution to be paid by a defendant
must be based on the actual loss suffered by the victimPeople v Bell, 276 Mich App 342,347,
741 NW2d 57 (2007).
The PSIR states that "the family spent $7,500 in out-of-pocket funeral expenses. [The
victim's mother] stated she will provide documentation when she appears in court for sentencing."
(PSIR at 3). During the sentencing hearing, no reference was made with regard to the basis for
restitution. The trial judge abused his discretion ordering $7505 in restitution.

25

CONCLUSION
For the above reasons Mr. Matthews requests that this Honorable Court grant his Petition
for a Writ of Certiorari reverse the Sixth Circuit’s decision or allow the parties to submit briefs on
the merits of the Sixth Circuit’s decision.

DECLARATION OF SERVICE
The petitioner certify under 28
USC 1746 that a copy of this
document was served to all
parties by U.S. Mail.
SUBMITTED BY:

A

DATE:

MICHAEL DESHON MATTHEWS #281752
IONIA CORRECTIONAL FACILITY
1576 WEST BLUEWATER HIGHWAY
IONIA, MICHIGAN 48846

26

fiacii [dr lb

9

, 2021

